INDEPENDENT AUDITORS REPORT AND
  PRINCIPAL STATEMENTS FOR THE
  YEAR ENDED SEPTEMBER 30, 1998

     OIG/98A-09 March 1, 1999
                                       March 1, 1999




MEMORANDUM TO:                Chairman Jackson


FROM:                         Hubert T. Bell
                              Inspector General


SUBJECT:                      RESULTS OF THE AUDIT OF U.S. NUCLEAR
                              REGULATORY COMMISSION'S FISCAL YEAR 1998
                              FINANCIAL STATEMENTS


Attached is the independent auditors’report on the U.S. Nuclear Regulatory Commission's
(NRC) Fiscal Year 1998 financial statements. The Chief Financial Officers Act requires
the Office of the Inspector General (OIG) to annually audit NRC’s Principal Financial
Statements. The report contains (1) the principal statements and the auditors’opinion on
those statements, (2) the auditors’opinion on management’s assertion about the
effectiveness of internal controls, and (3) a report on NRC’s compliance with laws and
regulations. Written comments were obtained from the Chief Financial Officer (CFO) and
are included as an appendix to the independent auditors’report.

Audit Results

The independent auditors issued an unqualified opinion on the Balance Sheet, the
Statements of Changes in Net Position, Net Cost, Budgetary Resources, and Financing.

In the opinion on management’s assertion about the effectiveness of internal controls, the
auditors concluded that management’s assertion is not fairly stated. The auditors reached
this conclusion because management did not identify the lack of managerial cost
accounting as a material weakness.1

The auditors identified four new reportable conditions and closed one prior-year
reportable condition. The new conditions concern (1) the lack of managerial cost
accounting, (2) the lack of fully aligned strategic, budget, and performance plans for
financial reporting, (3) inadequate funds control for NRC’s Comprehensive Information
System Support Contract (CISSCO), and (4) improper revenue recognition for
reimbursable agreements. The reportable condition closed concerned inadequate
segregation of duties.



  1
          OIG’s annual assessment of NRC’s implementation of the Federal Managers Financial
          Integrity Act will also report the lack of managerial cost accounting as a material
          weakness.
Chairman Jackson                             -2-


The report on NRC’s compliance with laws and regulations disclosed three
noncompliances with laws and regulations. The first is that NRC’s 10 CFR Part 170
license fee rates are not based on full cost. The second is that managerial cost
accounting was not implemented, as required, and the third is that accounting information
was not properly classified to support reporting of governmental and public information.
Issues two and three are considered substantial noncompliances with the Federal
Financial Management Improvement Act of 1996 (FFMIA).

Further, the prior year’s reportable condition relating to business continuity plans for the
general ledger system and fee systems remains in substantial noncompliance with FFMIA.
Tests of compliance with selected provisions of other laws and regulations disclosed no
other instances of noncompliance.

Performance Reporting

Office of Management and Budget Bulletin No. 98-08, Audit Requirements for Federal
Financial Statements, requires us to “obtain an understanding of the components of
internal control relating to the existence and completeness of assertions relevant to the
performance measures included in the Overview of the Reporting Entity.” The Bulletin
states that the objective of this work is to report deficiencies in the design of internal
control, rather than plan the financial statement audit. With this requirement and objective
in mind, OIG examined the control process for several performance measures. Our
examination concluded that there were no deficiencies to report.

Comments of the Chief Financial Officer

The CFO disagreed with the auditors’conclusion that management’s assertion about
internal controls is not fairly stated. The CFO explained that the agency’s management
representation letter identified managerial cost accounting as a “significant weakness.”
However, as stated above, the auditors identified this issue as a “material weakness.”

The CFO also disagreed with the auditors’conclusion that the fiscal year 1998 license fee
rates were not developed in accordance with applicable laws and regulations. However, in
his response to the attendant recommendation, the CFO advised that his office “will initiate
a study to analyze those activities currently characterized as ‘generic activities’for license
fee development purposes.” The CFO agreed with the remaining recommendations and
indicated that corrective action is underway.

We appreciate NRC staff's cooperation and continued interest in improving financial
management within NRC.

Attachment: As stated
U.S. NUCLEAR REGULATORY
  COMMISSION




INDEPENDENT AUDITORS’REPORT AND
PRINCIPAL STATEMENTS FOR THE
YEAR ENDED SEPTEMBER 30, 1998
                                                                   CONTENTS


I. REPORT OF INDEPENDENT AUDITORS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                      1

  Independent Auditors’Report on the Principal Statements . . . . . . . . . . . . . . . . . . . . . . . . . . .                                1

  Report on Management’s Assertion About the Effectiveness
    of Internal Control . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        3

  Independent Auditors’Report on Compliance with Laws
    and Regulations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     11

II. PRINCIPAL STATEMENTS

  Balance Sheet . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   19

  Statement of Net Cost . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       21

  Statement of Changes in Net Position . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  22

  Statement of Budgetary Resources . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                23

  Statement of Financing . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        24

  Notes to Principal Statements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           25

III.    APPENDIX

  Comments of the Chief Financial Officer                                                                                                     --
I. INDEPENDENT AUDITORS REPORT
                               REPORT OF INDEPENDENT AUDITORS



Chairman Shirley A. Jackson
U.S. NUCLEAR REGULATORY COMMISSION
Rockville, Maryland

In our audit of the U. S. Nuclear Regulatory Commission for the year ended September 30, 1998, we found:

• The principal statements were fairly stated in all material respects;

• Management stated, except for a significant deficiency related to managerial cost accounting, that NRC’s
  systems of accounting and the internal control in place as of September 30, 1998 are in compliance with the
  internal control objectives in Office of Management and Budget Bulletin No. 98-08, Audit Requirement for
  Federal Financial Statements, requiring that transactions be properly recorded, processed, and summarized
  to enable the preparation of the principal statements in accordance with Federal accounting standards, and
  safeguarding of assets against loss from unauthorized acquisition, use or disposal. Management did not
  identify the significant deficiency related to managerial cost accounting as a material weakness, therefore,
  management’s assertion on internal controls is not fairly stated.

• Our audit identified four reportable conditions, Comment A, Managerial Cost Accounting, is considered a
  material weakness. We also identified three conditions relating to compliance with laws and regulations, two
  of which are in substantial non-compliance with the Federal Financial Management Improvement Act
  (FFMIA).

The following sections outline our conclusions.

INDEPENDENT AUDITORS’REPORT ON THE PRINCIPAL STATEMENTS

We have audited the U.S. Nuclear Regulatory Commission’s (NRC) balance sheet, statements of net cost,
changes in net position, budgetary resources, and financing as of and for the year ended September 30, 1998,
herein referred to as the principal statements. The principal statements are the responsibility of NRC’s
management. Our responsibility is to express an opinion on the principal statements based on our audit.

SCOPE

We conducted our audit in accordance with generally accepted auditing standards; Government Auditing
Standards, issued by the Comptroller General of the United States; and, Office of Management and Budget
(OMB) Bulletin No. 98-08, Audit Requirements for Federal Financial Statements. Those standards require
that we plan and perform the audit to obtain reasonable assurance about whether the financial statements are
free of material misstatement. An audit includes examining, on a test basis, evidence supporting the amounts
and disclosures in the financial statements. An audit also includes assessing the accounting principles used and
significant estimates made by management, as well as evaluating the overall financial statement presentation.
We believe that our audit provides a reasonable basis for our opinion.
MATTERS FOR EMPHASIS

Financial Reporting by Program

OMB Bulletin No. 97-01, Form and Content of Agency Financial Statements, provides guidance to federal
agencies for preparing the principal statements which are the subject of this audit. Consistent with the
requirements of the Government Performance and Results Act (GPRA) of 1993, the bulletin requires agencies
to prepare the Statement of Net Cost (for a description of the principal statements refer to Note 1.B., in the
Notes to Principal Statements) using programs that fully align to the agency’s strategic, budget and
performance plans. The NRC is in the process of moving to fully aligned strategic, budget and performance
plans, therefore, the Statement of Net Cost in the current year includes programs as executed against the
budget plan and not the strategic or performance plans. (Refer to the Report on Management’s Assertion
About the Effectiveness of Internal Control, Comment B, Financial Reporting, for additional information
on this condition.)

Exchange Revenues Matched To Programs

The Federal Accounting Standards Advisory Board (FASAB) issued Statement of Federal Financial
Accounting Standards (SFFAS) No. 7, Accounting for Revenue and Other Financing Sources and Concepts
for Reconciling Budgetary and Financial Accounting, whereby agencies were directed to record and present
exchange revenues matched against program costs on the Statement of Net Cost. NRC cannot readily match
exchange revenues by program in the current year. Therefore, NRC, with OMB concurrence, included on the
Statement of Net Cost only the fee for services exchange revenue matched against its regulatory program. The
exchange revenue generated by annual fees was presented on the Statement of Net Cost as “not directly
assignable to programs.” Although, this presentation does not fully incorporate the guidance in SFFAS No.
7, the Statement of Net Cost, as a whole presents fairly the net cost of NRC programs. (Refer to Note 1.E.
in the Notes to Principal Statements for the agency’s policy on revenues and other financing sources.)

Classification of Costs

OMB Bulletin No. 97-01, Form and Content of Agency Financial Statements, provides guidance to federal
agencies for presenting program costs classified by intragovernmental and public components. The basis for
classification relies on the concept of who received the benefit of the cost incurred (e.g. private sector licensees
versus Federal licensees) rather than who was paid. However, following the advice of OMB, NRC classified
the costs on the Statement of Net Cost using an underlying concept of who was paid. This presentation does
not entirely incorporate the guidance in the Bulletin, however, it enables the agency to transition to the
presentation required in the current year. (Refer to Note 1.B., Basis of Presentation, in the Notes to Principal
Statements for a discussion of the principal statements in the current year.)

U.S. Department of Energy Expenses

NRC’s principal statements include reimbursable expenses of the U.S. Department of Energy (DOE) National
Laboratories. The NRC’s Statement of Net Cost includes approximately $61 million of reimbursed expenses,
which represent approximately 12% of total expenses. Our audit included testing these expenses for
compliance with laws and regulations within NRC. The work placed with DOE is under the auspices of a
Memorandum of Understanding between NRC and DOE. The examination of DOE National Laboratories for
compliance with laws and regulations is DOE’s responsibility. This responsibility was further clarified by a
memorandum of the GAO’s Assistant General Counsel, dated March 6, 1995, where he opined that “...DOE’s


                                                         2
inability to assure that its contractors’costs [National Laboratories] are legal and proper...does not compel a
conclusion that NRC has failed to comply with laws and regulations.” DOE also has the cognizant
responsibility to assure audit resolution and should provide the results of its audits to NRC.

OPINION

In our opinion, the principal statements referred to above present fairly, in all material respects, the financial
position of the NRC as of September 30, 1998, and its net cost of programs, changes in net position, budgetary
resources, and financing for the year then ended in conformity with generally accepted accounting principles.

As discussed in Note 1.B., Basis of Presentation, the form and content of the current year principal statements
noticeably differ from the principal statements issued in the prior year. The change to the principal statements
is required by OMB Bulletin No. 97-01, Form and Content of Agency Financial Statements.


REPORT ON MANAGEMENT’S ASSERTION ABOUT THE EFFECTIVENESS OF INTERNAL
CONTROL

We have examined management’s assertion that NRC’s systems of accounting and internal control in place as
of September 30, 1998 are in compliance with the internal control objectives in OMB Bulletin No. 98-08, Audit
Requirements for Federal Financial Statements. The Bulletin requires that transactions be properly recorded,
processed, and summarized to enable the preparation of the principal statements in accordance with Federal
accounting standards, and safeguarding of assets against loss from unauthorized acquisition, use or disposal.

Our examination was made in accordance with the standards established by the American Institute of Certified
Public Accountants; the standards applicable to financial audits contained in Government Auditing Standards,
issued by the Comptroller General of the United States; and, OMB Bulletin No. 98-08. Accordingly, we
considered NRC’s internal control over financial reporting by obtaining an understanding of the agency’s
internal controls, determined whether these internal controls had been placed in operation, assessed control risk,
and performed tests of controls and other procedures as we considered necessary in the circumstances. We
believe that our examination provides a reasonable basis for our opinion. Our examination was of the internal
control in place as of September 30, 1998.

Because of inherent limitations in internal control, errors or fraud may occur and not be detected. Also,
projections of any evaluation of the internal control over financial reporting to future periods are subject to the
risk that the internal control may become inadequate because of changes in conditions, or that the degree of
compliance with the policies and procedures may deteriorate.

In our opinion, management’s assertion that NRC’s systems of accounting and the internal control in place as
of September 30, 1998 are in compliance with the internal control objectives in OMB Bulletin No. 98-08,
requiring that transactions be properly recorded, processed, and summarized to enable the preparation of the
principal statements in accordance with Federal accounting standards, and safeguarding of assets against loss
from unauthorized acquisition, use or disposal, is not fairly stated, because management did not identify the
lack of managerial cost accounting as a material weakness.




                                                        3
Our consideration of management’s assertion on internal control over financial reporting would not necessarily
disclose all matters in the internal control over financial reporting that might be reportable conditions. Under
standards issued by the American Institute of Certified Public Accountants, reportable conditions are matters
coming to our attention relating to significant deficiencies in the design or operation of the internal control that,
in our judgment, could adversely affect the agency’s ability to record, process, summarize, and report financial
data consistent with the assertions by management in the financial statements. Material weaknesses are
reportable conditions in which the design or operation of one or more of the internal control components do not
reduce to a relatively low level the risk that misstatements in amounts that would be material in relation to the
financial statements being audited may occur and not be detected within a timely period by employees in the
normal course of performing their assigned functions.

We noted certain matters, discussed in the following paragraphs, involving the internal control and its operation
that we consider to be reportable conditions. Comment A, Managerial Cost Accounting, was considered a
material weakness and a substantial non-compliance with Federal Financial Management Improvement Act
(FFMIA).

Current Year Comments

A. Managerial Cost Accounting

  In 1995, the Federal Accounting Standards Advisory Board (FASAB) established requirements in Statement
  of Federal Financial Accounting Standards (SFFAS) No. 4, Managerial Cost Accounting Concepts and
  Standards, whereby agencies were to develop and implement cost accounting practices and techniques by
  fiscal year 1997. In 1997, the FASAB, based on input from a variety of sources including the Chief
  Financial Officers’Council, delayed the implementation of this standard until fiscal year 1998. NRC did
  not implement this standard during fiscal year 1998.

  SFFAS No. 4, Paragraph 4, states, “Managerial cost accounting should be a fundamental part of the
  financial management system and, to the extent practicable, should be integrated with other parts of the
  system.” Paragraph 5, further states, “Each reporting entity should report the costs of its activities on a
  regular basis for management information purposes.” Statement of Recommended Accounting Standards
  No. 9, Deferral of the Effective Date of Managerial Cost Accounting Standards for the Federal
  Government in SFFAS No. 4, states in paragraph 9, “The Board thus urges Federal entities to give
  implementation of SFFAS No. 4 a high priority and take immediate actions to define and structure
  responsibility segments and develop costing methodologies.”

  The Federal Financial Management Improvement Act, Section 803(a) states, “Each agency shall implement
  and maintain financial management systems that comply substantially with Federal financial management
  system requirements [OMB Circular Nos. A-127, A-130 and Joint Financial Management Improvement
  Program (JFMIP) requirements], applicable Federal accounting standards [Statements on Federal Financial
  Accounting Standards issued by FASAB], and the United States Government Standard General Ledger
  (SGL) at the transaction level.” [Criteria clarifications provided in brackets].




                                                         4
Cost accounting standards and concepts, as described in SFFAS No. 4, are designed to complement the
financial accounting practices already in place at NRC. Managerial cost accounting focuses on the
information needs of agency managers in order to support agency functions for planning, controlling costs,
decision making and evaluating performance. Cost accounting is the process for tracing various input costs
(i.e. direct labor, contract and indirect costs) to the outputs and outcomes realized by the agency.
Implementation of cost accounting techniques and practices is essential to an agency’s ability to prepare cost
performance evaluations under the Government Performance and Results Act (GPRA) in fiscal year 1999.

In fiscal year 1998, the agency continued to use obligation data for decision making and assessment of the
adequacy of managers’ use of federal resources. A report detailing the allowance holders obligated,
unobligated and liquidated amounts is produced monthly to enable managers to understand how they
performed throughout the most current month end and year-to-date against their respective financial
operating plans. During fiscal year 1998, cost finding techniques, studies or other methodologies were not
used to provide agency managers routine, reliable and timely information on the full costs of NRC programs,
activities or functions. Management did, however, employ cost finding techniques and allocation
methodologies at year end to compile the data needed to prepare the current year’s Statement of Net Cost.

During fiscal year 1998, NRC began a process for replacing its core financial management system.
Implementation of the core system is planned for late fiscal year 1999. A cost accounting module is
contemplated for the new core system (STARFIRE) as an integral part of the NRC’s overall financial
management system. At the end of fiscal year 1998, the agency contracted for services to begin an
assessment of the needs of agency managers for cost accounting information.

Recommendation

The Chief Financial Officer (CFO) should assess the immediate needs of NRC managers to receive reliable
and routine cost accounting information in light of performance and results mandates included in GPRA.
Additionally, the CFO in preparing a remediation plan should develop a strategy, including milestones, to
incorporate cost management standards and concepts throughout the agency. The plan developed could serve
to identify, develop and implement those metrics that managers need now in order to best manage resources
and assess performance against the agency’s strategic and performance plans.

CFO’s Comments

“Implementation of managerial cost accounting has been incorporated into a larger agency initiative of
implementing an integrated, agency wide resource management system, STARFIRE. STARFIRE will include
cost accounting and labor-cost distribution modules which will provide necessary tools for reporting costs
and implementing cost accounting. Corrective action concerning the implementation of managerial cost
accounting will be addressed in the remediation plan required by FFMIA. OCFO expects to complete this
plan by July 1, 1999. An agency manager responsible for implementation will be announced at that time.”




                                                     5
 Auditors’Position

 We disagree with the CFO’s position that “...the lack of managerial costs accounting system did not have
 a material impact on the NRC’s ability to perform its mission and to provide managers with the financial
 information they needed to manage....” The approach taken by the CFO precludes agency managers from
 having the tools to make informed decisions on the usage of resources and improvements needed to gain
 operating economies and efficiencies. NRC is a service organization, funded by its regulated community,
 that provides rulemaking, regulatory licensing, and inspection services. Therefore, it is essential that NRC
 management recognize the importance of “Reliable and timely costs information that helps them ensure that
 resources are spent to achieve expected results and outputs, and alerts them to waste and inefficiency...”
 [Cited excerpt from SFFAS No. 4, Paragraph 19]

  The underlying premise stated by the FASAB in its concepts and standards is that financial managers should
 develop processes and systems to provide routine, reliable information to all managers. The NRC has not
 made significant progress in identifying the needs of managers, nor discussing what should be tracked and
 measured, nor what metrics will be used for measuring costs. Therefore, it seems premature for the CFO
 to judge implementation of this standard [SFFAS No. 4] as not having “...a material impact on the NRC’s
 ability to perform its mission...”as indicated in his response. We firmly believe the lack of agency wide cost
 information or costs finding techniques to support agency managers’needs, causes the NRC to lose step with
 mandated financial management improvements for federal agencies. Additionally, we reiterate that the lack
 of cost accounting information undermines the agency’s ability to demonstrate its readiness to fully comply
 with the requirements of GPRA in FY 1999.

 However, we commend the CFO’s STARFIRE initiative since it may provide the foundation to develop cost
 accounting and labor cost distribution. The CFO should assure that the new system has the flexibility to
 incorporate those metrics which will be necessary to provide managers routine, relevant and reliable data in
 future years. The remediation plan provided by the CFO should include the milestones planned for
 implementing the new system and the related modules, along with a discussion of the strategy that will be
 used to define the needs of managers and the capacity of the new system to be responsive to such needs.
 During a subsequent audit, OIG will assess the adequacy of the agency’s actions.

B. Financial Reporting

 OMB Bulletin No. 97-01, Form and Content of Agency Financial Statements, provides guidance to federal
 agencies for preparing the principal statements. Consistent with the requirements of the Government
 Performance and Results Act (GPRA) of 1993, the bulletin requires agencies to prepare the Statement of Net
 Cost using programs that fully align to the agency’s strategic, budget and annual performance plan. During
 fiscal year 1998, NRC did not have fully aligned strategic, budget and performance plans. OMB Bulletin
 No. 97-01, states on page 26, Instructions for the Preparation of the Statement of Net Cost,
 “Preparers...should decide the exact classification of ...major programs based on the missions and outputs
 described in its GPRA strategic and annual plans, the entity’s budget structure....”

 NRC management understood that the requirement for having the three plans fully aligned would come into
 effect for fiscal year 1999, in accordance with the GPRA. The guidance in OMB Bulletin No. 97-01, was
 not considered, by NRC management, sufficiently clear to move the requirement




                                                      6
for full alignment of the plans into fiscal year 1998. Therefore, the agency executed and classified transactions
along budget plan programs without consideration for mission based programs which more closely align with
the strategic plan and/or with the planned resource usage described in the annual performance plan.

  For example, the budget plan was developed using five programs; the fiscal year 1998 initial strategic plan
  had seven programs; a subsequent proposed strategic plan had four programs; and the performance plan had
  eight programs. This lack of congruity between plans made it challenging for the agency to use one
  streamlined approach for planning, executing and reporting transactions.

  The Statement of Net Cost, for the current year, was prepared using the budget plan programs. Recorded
  transactions and other financial information available dictated using this approach. Additionally, using a
  variety of cost finding techniques (e.g. surveys, allocations, data mapping) at year end, the agency assigned
  two budgetary programs--management and support and inspector general--to the remaining three budgetary
  programs. The allocations facilitated the agency’s development of costs by budget plan program included
  on the Statement of Net Cost.

  Recommendation

  The Chief Financial Officer should assure that the budget, strategic and performance plans are fully aligned.
  Employing such a concept would present one cohesive philosophy for agency managers to plan, record,
  process, and summarize financial activities; thus, enabling managers to evaluate their performance against
  financial operating plans, strategic goals and performance plans.

  CFO’s Comments

  “The NRC’s structure for budgeting and strategic and performance planning have been in an evolutionary
  development phase over the past 2 years as the agency has been transitioning to full alignment as required
  by GPRA for FY 1999. While the agency was in this transition period, it was not possible to implement the
  guidance in the Office of Management and Budget Bulletin No. 97-01, which required the full alignment of
  budget, strategic plan, and performance plan earlier than required by GPRA. As planned for FY 1999, NRC
  has fully aligned its budget, strategic plan, and performance plan. The Budget Estimates and Performance
  Plan - Fiscal Year 2000 contains the budget and performance plan structure that the agency is executing for
  FY 1999 which is aligned with the current working draft of the strategic plan.”

  Auditors’Position

  While we commend the CFO for moving forward with his planned action to align the agency’s budget,
  strategic and performance plans, we re-emphasize the need to incorporate the results of its plan into the
  financial reporting model that will be used for the FY 1999 financial statements. During a subsequent audit,
  OIG will assess the adequacy of management’s actions.

C. CISSCO Obligations

  The Information Technology Management Reform Act of 1996 provided authority to OMB to designate an
  agency (General Services Administration (GSA) was selected) to procure government-wide contracts which
  other federal agencies could use. The NRC, through a Basic Agreement (BA) with GSA, gained access to
  the services of an information technology (IT) contractor. The NRC program used for IT services is known
  as the Comprehensive Information System Support Contract (CISSCO).


                                                       7
Management Directive 4.2, Financial Management Administrative Control of Funds, Part IV, states, “The
NRC’s funds control system is based on complementary and integrated fiduciary responsibilities for both the
Chief Financial Officer (CFO) and the NRC officials who receive allowances of agency funds. OCFO is
responsible for maintaining the NRC accounting system that contains the official balances of funds
...committed, obligated and paid. NRC allowance holders are responsible for internal records and controls
in their organizational units.” Part VI further states, “An ‘obligation of funds’is an action that creates a
liability or definite promise on the part of the Government to make payment at some later date....Obligations
must be supported by appropriate documentation, such as written binding agreements....”

NRC did not follow established fund control policy and issued obligations to GSA without recording them
in the NRC’s general ledger system. Additionally, fund controls were set at the job code level, thereby
precluding effective management control at the lowest functional level. The lowest functional level in the
CISSCO program is known as a Task Assignment Control (TAC). Examples follow:

Representations to GSA

The CISSCO program used by NRC, within the Office of the Chief Information Officer (OCIO), included
providing GSA Basic Agreement Amendments (BAA). These documents amended, as necessary, the
obligation ceiling of the agreement. Internally, however, NRC considered the BAA a commitment. Although
the documents provided to GSA stated that an obligation was being provided, no corresponding obligations
were recorded in the Federal Financial System (FFS). Based on these documents, GSA directed their
contractor to provide cost estimates and/or other services. This practice put the NRC at risk of incurring
expenses without a valid obligation.

Funds Control

During fiscal year 1998 the OCFO reconciled obligations and costs and reclassified transactions from job
codes to TAC numbers in order to gain accounting control over the program at the lowest functional level.
While performing the reconciliation, OCFO identified the following funds control conditions in 30 of the 43
job codes reviewed with fiscal year 1996 and 1997 obligations:

                                                                         Percent of
                                                                         Total Job     Amount of Variance
              Condition Encountered                No. of Job Codes        Nos.

    Obligations by job number which exceeded
    the related TACs                                      18               41.8%                $ 1,187,404

    Obligations by job number which under-
    funded the related TACs                               12               28.0%              $ (1,275,525)

Approximately 70% of the job codes included in the CISSCO reconciliation were either over or
underobligated. However, the exceptions identified do not rise to an antideficiency exception since the
appropriations, allotments and allowances in total for the agency were not exceeded.




                                                    8
For example, one job code (J1075) required approximately $238,000 in fiscal year 1998 funds to cover
$480,000 that was overexpended. The $242,000 balance was made up by fiscal year 1996 and 1997 job
codes that had excess obligations.

The Office of the Inspector General has an audit of the CISSCO program underway, which will assess the
adequacy of funds control.

Recommendation

The Chief Financial Officer (CFO) should reaffirm to senior managers that funds control policies are critical
elements for managing agency resources. At a minimum all appropriate obligating documents should be
provided to OCFO for recording obligations.

The CFO should ensure that new programs managed by the agency conform to established funds control
practices embodied in the agency’s respective management directives.

Furthermore, the CFO should clarify to senior managers agency policy for making funds control
representations to other agencies. At a minimum, the information provided externally should be consistent
with the official transactions recorded to the agency’s accounting records.

CFO’s Comments

“The agency’s administrative control of funds policies and procedures are depicted in Management Directive
and Handbook 4.2, Administrative Control of Funds. In addition, senior managers responsible for funds
management are required to take two NRC developed training courses (1) Introduction to Federal Financial
Management which reviews the concepts, processes, and procedures for Federal financial management and
(2) Administrative Control of Funds which covers the NRC’s system of administrative control of funds that
is defined in Management Directive and Handbook 4.2. However, the OCFO will reaffirm to senior
managers the agency’s funds control policies and the necessity to provide to OCFO all appropriate obligating
documents. Corrective action in the form of a memorandum to allowance financial managers is expected to
be completed by April 1, 1999.”

“The OCFO will ensure that new programs managed by the agency conform to established agency funds
control guidance by requiring the program manager of the new activity to attend the two NRC training
courses, Introduction to Federal Financial Management and Administrative Control [of] Funds. Allowance
financial managers will be advised of this new requirement by memorandum by April 1, 1999.”

“OCFO will clarify with senior managers the agency policy for making fund control representations to other
agencies. Corrective action in the form of a memorandum to allowance financial managers is expected to
be completed by April 1, 1999. In addition, future sessions of the Administrative Control of Funds training
course will address this issue.”

Auditors’Position

The actions described by the CFO should raise the awareness of agency personnel over the importance of
funds control. During a subsequent audit, OIG will assess the improvements made by the agency.




                                                    9
D. Revenue from Reimbursable Agreements

 Reimbursable agreements are a component of exchange revenue included in the Statement of Net Cost.
 These agreements are between NRC and other federal agencies, licensees and foreign governments. The
 services performed include inspections, research, and serving as a conduit for obtaining criminal and
 background checks on behalf of licensees.

 Statement of Federal Financial Accounting Standards (SFFAS) No. 7, Accounting for Revenue and Other
 Financing Sources, and Concepts for Reconciling Budgetary and Financial Accounting, provides the
 standards to account for inflows of resources from revenues and other financing sources. SFFAS No. 7,
 states in paragraph 34, “Revenue from exchange transactions should be recognized when goods or services
 are provided to the public or another Government entity at a price.” In other words, on the accrual basis of
 accounting.

 The revenue from reimbursable agreements was not consistently recorded using accrual based revenue
 recognition principles. In some cases, revenue was recorded as contract support expenses were paid. In other
 cases, such as agreements with DOE, revenue was recorded as NRC employees performed services on the
 related projects, which is appropriate. Additionally, revenue from the foreign cooperative research program
 was recorded as research expenses were paid. Generally, revenue was recognized at the time when the
 related expenses were paid, on the cash basis of accounting. Examples of the revenue recognition practices
 follow:

 Cooperative Agreements

 In fiscal year 1998, revenue related to the foreign cooperative agreements was originally recorded as $3.5
 million based on payments made to DOE laboratories and other contractors for research. At year-end, the
 balance sheet reflected advances of $2.7 million consisting of payments received in prior years and not
 applied to research costs. However, this treatment was not appropriate because there is no connection, using
 accrual based revenue recognition principles, between incurring research expenses and earning revenue.

 The revenue from cooperative agreements should have been recognized based on the annual contributions
 specified in the agreements, net of an allowance for uncollectible amounts. As a result, we proposed a prior
 period adjustment of $3.9 million to adjust fiscal year 1998 revenue and to reclassify contributions recorded
 as advances in prior years.

 Other Reimbursable Agreements

 The exchange revenue from other agreements, such as the criminal history and information programs was
 also improperly recognized. Revenue was recorded as payments to the FBI, OPM and other contractors were
 made rather than as the services were provided. Also, the surcharges imposed by NRC to recover
 administrative costs were recorded when payments were made to the contractor rather than when the
 background checks were completed.

 Recommendation

 The Chief Financial Officer should implement procedures to ensure that revenue from reimbursable
 agreements is reflected on the principal statements on the accrual basis of accounting.




                                                     10
  CFO’s Comments

  “OCFO will perform an analysis of its reimbursable work and revenue recognition and establish the
  necessary procedures to ensure that revenue is appropriately recognized on the financial statements.
  Corrective action will be implemented by June 1, 1999.”

  Auditors’Position

  The actions described by CFO appear appropriate. During a subsequent audit, OIG will assess the adequacy
  of actions taken.

Status of Prior Year Comments

  Segregation of Duties - FFS

  In the prior year, we found that employees holding “lead accountant”profiles and preparing reconciliations
  were performing incompatible functions in their normal duties. In his response, the CFO indicated that
  compensating controls would be instituted by requiring additional supervisory review and certification of data
  reconciliations performed by lead accountants. The described controls were implemented. This condition
  is resolved and closed.

Assurance on Performance Measures

With respect to internal controls related to performance measures, the Office of the Inspector General
performed those procedures and will report this issue separately. Our procedures were not designed to provide
assurance over reported performance measures, and, accordingly, we do not provide an opinion on such
information.


INDEPENDENT AUDITORS’REPORT ON COMPLIANCE WITH LAWS AND REGULATIONS

We conducted our audit in accordance with: generally accepted auditing standards; the standards applicable
to financial audits contained in Government Auditing Standards, issued by the Comptroller General of the
United States; and, Office of Management and Budget (OMB) Bulletin No. 98-08, Audit Requirements for
Federal Financial Statements.

NRC management is responsible for complying with laws and regulations applicable to the agency. As part
of obtaining reasonable assurance about whether the agency’s financial statements are free of material
misstatement, we performed tests of its compliance with certain provisions of laws and regulations.
Noncompliance with these provisions could have a direct and material effect on the determination of financial
statement amounts and certain other laws and regulations specified in OMB Bulletin No. 98-08, and the Federal
Financial Management Improvement Act (FFMIA) of 1996. Providing an opinion on compliance with certain
provisions of laws and regulations was not an objective of our audit and, accordingly, we do not express such
an opinion.

The results of our tests of compliance with the laws and regulations described in the preceding paragraph
exclusive of FFMIA, disclosed instances of noncompliance with the following laws and regulations that are
required to be reported under Government Auditing Standards and OMB Bulletin No. 98-08, are described
below.

                                                      11
Current Year Comment - Non-FFMIA

Part 170 Hourly Rates

The Omnibus Budget Reconciliation Act (OBRA) of 1990 requires the NRC to recover approximately 100%
of its budget authority by assessing fees. Accordingly, NRC assesses two types of fees to its licensees and
applicants. One type, specified in 10 CFR Part 171, consists of annual fees assessed to power reactors,
materials and other licensees. The other type, specified in 10 CFR Part 170 and authorized by the Independent
Offices Appropriation Act (IOAA) of 1952 , is assessed to specific licensing actions, inspections and other
services provided to licensees and applicants.

The IOAA in 31 U.S.C. Section 970 1(b) states “...each charge shall be (1) fair and (2) based on (A) the costs
to the Government...” OMB Circular A-25, User Charges, provides guidance for assessing fees under the
IOAA. Circular A-25 states in paragraph 6(a)(2)(a), “...user charges will be sufficient to recover the full cost
to the Federal Government of providing the service, resource, or good when the Government is acting in its
capacity as sovereign...”and paragraph (6)(d)(1) states, “...full cost includes all direct and indirect costs to any
part of the Federal Government of providing a good, resource, or service.”

Each year, the Office of the Chief Financial Officer (OCFO) computes the hourly rates used to charge for the
time incurred by NRC personnel in providing Part 170 services. The rates are based on budgetary data and are
used to price individually identifiable Part 170 services. The following table displays the basis for the fiscal
year 1998 hourly rates.

                     Components of Part 170 Hourly Rates                       Reactors         Materials

       Direct salaries and benefits - program offices                             $103.9             $20.5
       Overhead salaries, benefits and support costs - program offices              55.3              14.8
       Allocated indirect management and support costs                             101.7              22.0
              Total budgeted program costs (in $000s)                              260.9              57.3

       Divided by direct program FTEs                                            1,186.4            267.3

         Costs by FTE                                                          $219,900          $214,400

       Divided by productive annual hours                                          1,776             1,776

       Part 170 hourly rates - effective 08/10/98                                $124.00           $121.00



The fiscal year 1998 rates were not developed in accordance with applicable laws and regulations because they
are not based on the full cost of providing Part 170 services. For example, the calculations did not include
certain contract support costs of approximately $70 million, net of contract support costs directly billable to
licensees and applicants. The excluded contract support costs, $70 million, primarily consisted of research
projects. The $70 million represents approximately 15% of the fiscal year 1998 NRC appropriation of $472.8
million.

The contract support costs were excluded because, based on the OBRA conference agreement, the OCFO
classified these costs as “generic activities”that benefit licensees generally. Thus, NRC recovered these costs
through the Part 171 annual fees.



                                                        12
Recommendation

The Chief Financial Officer should initiate an analysis of all contract support costs that were classified as
“generic activities” and were excluded from the rate. The analysis should seek to determine the portion of
those costs that benefit specific classes of licensees (i.e. power reactor or materials) and should, therefore, be
included in the computation of Part 170 hourly rates.

CFO’s Comments

“While OCFO believes its development of the license fee rates is compliant with applicable laws and
regulations, it will initiate a study to analyze those activities currently characterized as “generic activities”for
license fee development purposes. A multi-office team will be established by May 1, 1999, to conduct a study
to determine whether the costs currently identified as “generic”continue to meet the definition contained in the
Conference Report to the Omnibus Budget Reconciliation Act. The results of this analysis will be incorporated
in the development of the FY 2000 fee rule.”

Auditors’Position

On the first page of his comments, the CFO indicated disagreement with this condition. The condition remains
as initially stated.

Our review disclosed that in response to OBRA 1990, the agency developed the methodology used for the
current Part 170 fee structure. That methodology, among other things, had exclusions consistent with the
Conference Report, such as generic, OIG and Commission costs. Since that time NRC has studied and
included in the rate previously excluded costs, thus moving away from the initial interpretation adopted in the
Conference Report. However, no initiatives have been undertaken to study the agency’s practice for blanket
exclusion of generic costs from the rate. Our point is that a complete review of the pricing policy is necessary
to assess whether the costs included assure compliance with the full costs provisions of OMB A-25. Generic
costs, like any other cost, may impact the computation of a full cost rate and enable NRC to define a more
compliant methodology than the blanket exclusion practice currently in place.

We believe that the steps described by the CFO relating to the multi-office team to study this policy will
enhance the agency’s pricing practices. During a subsequent audit, OIG will assess the adequacy of the actions
taken. Presently the OIG has a review of this process underway.

Current Year Comments - FFMIA

Under FFMIA, we are required to report whether the agency’s financial management systems substantially
comply with the Federal financial management systems requirements, Federal accounting standards, and the
United States Government Standard General Ledger at the transaction level.

 To meet this requirement, we performed tests of compliance using the implementation guidance for FFMIA
included in Appendix D of OMB Bulletin No. 98-08.The results of our tests disclosed instances, described
below, where the agency’s financial management systems did not substantially comply with the three
requirements discussed in the preceding paragraph.




                                                        13
A. Managerial Cost Accounting

 Refer to the Report on Management’s Assertion About the Effectiveness of Internal Control, Comment A,
 Managerial Cost Accounting, for a detailed discussion of the condition, recommendation. This condition
 was considered a material weakness and a Federal Financial Management Improvement Act substantial
 non-compliance.

B. Accounts Receivable Classifications

 The agency’s billing system is dependent on a series of interfaces to assure that information maintained in
 subsidiary data bases and systems is properly recorded at the transaction level and uploaded to the general
 ledger (FFS). We noted that information being uploaded for posting to the general ledger was not properly
 classified, thereby precluding the core accounting system from properly capturing, at the transaction level,
 information to support the intragovernmental and public information necessary to prepare the balance sheet
 at September 30, 1998.

 Section 803(a) of the Federal Financial Management Improvement Act (FFMIA), states, “Each agency shall
 implement and maintain financial management systems that comply substantially with Federal financial
 management system requirements [OMB Circular A-127, A-130 and Joint Federal Management
 Improvement Program (JFMIP) requirements], applicable Federal accounting standards [Statements on
 Federal Financial Accounting Standards issued by FASAB], and the United States Government Standard
 General Ledger (SGL) at the transaction level.” [Criteria clarifications provided in brackets].

 At our request, the Office of the Chief Financial Officer personnel performed an assessment of transaction
 level classifications and found a technical error in the interface’s “file transfer protocols.” Apparently when
 data interfaced with the general ledger, the program protocol which triggers the system to set the correct
 classification from the data files was inoperable. The amounts on the balance sheet, however, have been
 adjusted to reflect the proper financial line item classifications.

 The lack of edits to detect errors in the data transfer protocols and the lack of proper transaction level review
 of the resulting uploaded data results in a substantial noncompliance as it relates to both the financial
 management system requirements under JFMIP and the U.S. Standard General Ledger at the transaction
 level.

 Recommendation

 The Chief Financial Officer should pursue technical enhancements to the file transfer protocols that are in
 place. The enhancements should be tested to ensure that the change made properly addresses the file transfer
 protocols between the subsidiary transactions and information uploaded to the core accounting system.

 CFO’s Comments

 “The technical enhancements to the file transfer protocols have been completed and are in the process of
 being tested. We expect the enhancements to be implemented and operational by April 1, 1999; therefore,
 a remediation plan will not be developed for this finding.”

 Auditors’Position

 We commend the CFO for the interim steps taken since the issue was brought to his attention. Additionally,

                                                      14
 we concur that if resolution of the condition is reached prior to the development of the July 1, 1999
 remediation plan, that this item should not be included. During a subsequent audit, OIG will assess the
 adequacy of the actions taken.

Prior Year Status - FFMIA

 Business Continuity

 During the prior year, our assessment of NRC’s management control program included a review of the
 agency’s business continuity practices for major financial management systems. The major systems
 identified included (1) the core general ledger - Federal Financial System (FFS) operated by Treasury’s
 Financial Management Service (FMS), (2) accounts receivable, and (3) the payroll system.

 The remediation plan, dated June 1, 1998, prepared by the CFO described the strategy to design a solution
 and provided a timetable for resolving the substantial non-compliance. The plan was reviewed and accepted
 by the Office of the Inspector General and has been acted upon by NRC management as follows:

 1. General Ledger - FFS: NRC contacted the Treasury’s Financial Management Service (FMS) expressing
    concern about the lack of a plan that is fully tested and restated that the responsibility for maintaining
    and testing the plan rests with FMS and not NRC. FMS replied that action was being taken, however,
    the reasonable assurance letter issued to NRC by FMS at September 30, 1998, indicated that little to no
    progress has been made on this issue. The substantial non-compliance remains unresolved. NRC is
    dependent on FMS to resolve this condition.

   CFO’s Comments

   “NRC is dependent on Treasury’s Financial Management Service to resolve this condition. We do not
   expect, however, for Treasury to complete corrective action before FFS is replaced by NRC’s new agency
   wide resource management system, STARFIRE, within the next 6 months.”

   Auditors’Position

   None.

 2. Fee Systems: The strategy developed in the remediation plan for this system has not been implemented.
     In December 1998, NRC accepted a technical proposal from a contractor to develop and test a
    continuity plan for the fee systems. On January 29, 1999, the contractor delivered a work plan that
    describes the work to be performed, the milestones and the deliverables. The substantial non-compliance
    remains unresolved.




                                                    15
    CFO’s Comments

    “While implementation of corrective action for this system has been delayed, it is expected that a fully
    tested business continuity plan will be in place by April 1, 1999.”

    Auditors’Position

    During a subsequent review OIG will assess corrective actions taken to resolve this condition.

  3. Payroll System: During the prior audit, we recognized that NRC had an outdated business continuity
     plan for the Automated Payroll System. We reported that management planned to move to a new
     payroll system effective April 1998 (PAY/PERS) and that business continuity efforts should address the
     new system. PAY/PERS did not become the system of record during fiscal year 1998, therefore,
     management devoted resources to developing a contingency plan for the Automated Payroll System.
     Since a plan was developed and the Automated Payroll System is no longer the system of record, the
     substantial non-compliance is resolved and closed.

Consistency of Other Information

NRC’s overview of program performance goals and results, and other supplemental financial and management
information contain a wide range of data, some of which is not directly related to the principal statements. We
do not express an opinion on this information. We have, however, compared this information for consistency
with the principal statements and discussed the measurement and presentation methods with NRC management.
Based on this limited effort, we found no material inconsistencies with the principal statements or
noncompliance with OMB guidance.

Objectives, Scope and Methodology

NRC management is responsible for (1) preparing the principal statements in conformity with the basis of
accounting described in Note 1 to the Notes to Principal Statements, (2) establishing, maintaining, and
assessing internal controls to provide reasonable assurance that FMFIA’s broad control objectives are met, and
(3) complying with applicable laws and regulations including the requirements referred to in FFMIA.

We are responsible for expressing an opinion on whether (1) the principal statements are free of material
misstatement and presented fairly, in all material respects, in conformity with the basis of accounting described
in Note 1 to the principal statements, and (2) for obtaining reasonable assurance about whether management’s
assertion about the effectiveness of internal control is fairly stated, in all material respects, based upon criteria
established by FMFIA and OMB Circular A-123, Management Accountability and Control. As of the date
of our report, NRC management had completed its evaluation of financial controls.

We are also responsible for testing compliance with selected provisions of laws and regulations and for
performing limited procedures with respect to certain other information in the principal statements. In order
to fulfill these responsibilities, we:

C examined, on a test basis, evidence supporting the amounts and disclosures made in the principal statements;

C assessed the accounting principles used and significant estimates made by management;

C evaluated the overall presentation of the principal statements;

                                                        16
C obtained an understanding of internal controls related to safeguarding of assets, compliance with laws and
  regulations including execution of transactions in accordance with budget authority and financial reporting,
  in the principal statements;

C assessed control risk and tested relevant internal controls over safeguarding of assets, compliance, and
  financial reporting, and evaluated management’s assertion about the effectiveness of internal control;

C tested compliance with selected provisions of the following laws and regulations: Anti-Deficiency Act (Title
  31 U.S.C.), National Defense Appropriation Act (PL 101-510), Omnibus Budget Reconciliation Act of 1990
  (PL 101-508), Debt Collection Act of 1982 (PL 97-365), Prompt Pay Act (PL 97-177), Civil Service
  Retirement Act of 1930, Civil Service Reform Act (PL 97-454), Federal Managers’Financial Integrity Act
  (PL 97-255), Chief Financial Officers’Act (PL 101-576), Budget and Accounting Act, Federal Financial
  Management Improvement Act (PL 104-208); and,

C reviewed compliance and reported in accordance with FFMIA whether the agency’s financial management
  systems substantially comply with the Federal financial management system requirements, applicable
  accounting standards and the U.S. Standard General Ledger at the transaction level.

We did not evaluate all internal controls relevant to operating objectives as broadly as defined in FMFIA, such
as those controls for preparing statistical reports and those for ensuring efficient and effective operations. We
limited our internal control tests to those controls necessary to achieve the objectives described in our opinion
on management’s assertion about the effectiveness of internal controls. We performed our work in accordance
with generally accepted auditing standards, Government Auditing Standards and OMB Bulletin No. 98-08,
Audit Requirements for Federal Financial Statements.

Agency Comments

On February 25, 1999, the CFO responded to the Inspector General on our draft report and addressed the
recommendations noted in the report. However, the CFO did not provide specific remedial actions for the
FFMIA exceptions noted in the report. The CFO indicated that a [remediation] plan will be prepared by July
1, 1999. Comment B, Accounts Receivable Classifications, an FFMIA condition, will not be included in the
remediation plan since the CFO expects to have this condition resolved by April 1, 1999. Based on our review
of the CFO’s comments, we are satisfied that the actions described meet the intent of our recommendations and
FFMIA guidelines. The CFO’s comments are appended to this report in their entirety.

Under separate cover, comments will be provided to NRC management outlining opportunities for
strengthening internal control and operating efficiency. We appreciate NRC staff cooperation and continued
interest in improving financial management within the agency.




                                                       17
This report is intended for the management of the U.S. Nuclear Regulatory Commission, OMB, Congress and
the NRC Office of the Inspector General (OIG). This restriction is not intended to limit the distribution of this
report, which upon acceptance by the OIG, is a matter of public record.




February 5, 1999




                                                       18
II. PRINCIPAL STATEMENTS
                                                                              Principal Statements



                                    BALANCE SHEET
                                  As of September 30, 1998
                                         (in dollars)



                           ASSETS

Entity Assets:

   Intragovernmental assets:
      Fund balances with Treasury (Note 2)                                    $165,219,307
      Accounts receivable, net (Note 4)                                          1,993,974
      Advances and prepayments (Note 5)                                          2,091,378
          Total intragovernmental assets                                       169,304,659


   Cash (Note 3)                                                                    50,000
   Accounts receivable, net (Note 4)                                            26,324,300
   Advances and prepayments (Note 5)                                               218,772
   Property and equipment, net (Note 6)                                         39,432,602

         Total Entity Assets                                                   235,330,333


Non-Entity Assets:

      Accounts receivable, net (Note 4)                                             36,606

         Total Non-Entity Assets                                                    36,606

                 TOTAL ASSETS                                                 $235,366,939




                         The accompanying notes to the principal statements
                               are an integral part of these statements.

                                                19
                                                                               Principal Statements



                                  BALANCE SHEET (Continued)
                                    As of September 30, 1998
                                           (in dollars)

                    LIABILITIES

Liabilities Covered by Budgetary Resources:

    Intragovernmental liabilities:
       Accounts payable and advances (Note 7)                                  $ 11,715,665
       Accrued benefits (Note 8)                                                  2,094,961
       Other intragovernmental liabilities (Note 9)                              31,983,981
           Total intragovernmental liabilities                                   45,794,607

    Accounts payable (Note 7)                                                    17,968,182
    Other liabilities (Note 9)                                                    1,769,829
    Accrued payroll and benefits (Note 8)                                        11,614,850

           Total Liabilities Covered by Budgetary Resources                      77,147,468

Liabilities Not Covered by Budgetary Resources:

    Intragovernmental liabilities:
       Other intragovernmental liabilities (Note 10)                              6,404,812

    Other liabilities (Note 10)                                                  26,049,638

           Total Liabilities Not Covered by Budgetary Resources                  32,454,450

                TOTAL LIABILITIES                                               109,601,918

                    NET POSITION

    Unexpended appropriations (Note 12)                                         116,022,952
    Cumulative results of operations (Note 13)                                    9,742,069

                TOTAL NET POSITION                                              125,765,021

                    Total Liabilities and Net Position                         $235,366,939

                          The accompanying notes to the principal statements
                                are an integral part of these statements.

                                                 20
                                                                                 Principal Statements



                                STATEMENT OF NET COST
                             For the year ended September 30, 1998
                                           (in dollars)



Costs:

    Regulatory Program
      Intragovernmental                                        $ 94,919,617
      With the public                                           259,985,218
          Total                                                 354,904,835
      Less directly assignable revenue (Note 16)                (96,718,258)

         Regulatory Program costs, net of
          assignable revenue                                                     $258,186,577

    Regulatory Effectiveness Program
      Intragovernmental                                          75,606,111
      With the public                                            76,283,200

         Regulatory Effectiveness Program costs                                   151,889,311

    Regulation of DOE Program
      Intragovernmental                                              714,039
      With the public                                              3,668,313

         Regulation of DOE Program costs                                            4,382,352

    Total program costs, net of directly
     assignable earned revenues                                                   414,458,240

    Less earned revenues not directly
       assignable to programs (Note 16)                                          (365,619,349)

Net Cost of Operations                                                           $ 48,838,891




                            The accompanying notes to the principal statements
                                  are an integral part of these statements.

                                                   21
                                                                               Principal Statements



                    STATEMENT OF CHANGES IN NET POSITION
                        For the year ended September 30, 1998
                                      (in dollars)



Net Cost of Operations                                                         $ (48,838,891)

Financing sources (other than exchange revenues):

    Appropriations used, net (Note 14)                         37,516,139
    Non-exchange revenue (Note 1.B.)                            7,015,287
    Imputed financing (Note 15)                                17,961,303
    Transfers - out                                            (7,015,287)

        Total financing sources                                                  55,477,442

          Net results of operations                                               6,638,551

Decrease in unexpended appropriations                                           (13,262,129)

Change in Net Position                                                           (6,623,578)

Net Position - Beginning of Period                            128,447,809

    Prior-period adjustment (Note 18)                            3,940,790

Net Position - Restated Beginning of Period                                     132,388,599

Net Position - End of Period                                                   $125,765,021




                          The accompanying notes to the principal statements
                                are an integral part of these statements.

                                                 22
                                                                               Principal Statements



                      STATEMENT OF BUDGETARY RESOURCES
                         For the year ended September 30, 1998
                                       (in dollars)



Budgetary Resources (Note 19):

    Budget authority                                                           $481,125,000
    Unobligated balances - beginning of period                                   29,370,393
    Spending authority from offsetting collections                                4,908,396
    Adjustments (Note 19)                                                         9,895,274

       Total Budgetary Resources                                               $525,299,063


Status of Budgetary Resources:

    Obligations incurred                                                       $490,118,464
    Unobligated balances - available                                             35,180,599

       Total Status of Budgetary Resources                                     $525,299,063


Outlays:

    Obligations incurred                                                       $490,118,464
    Less: Spending authority from offsetting
             collections and adjustments                                        (14,803,670)

       Subtotal                                                                 475,314,794

    Obligated balances, net - beginning of period                               145,827,462

    Less: obligated balances, net - end of period                              (124,700,809)

       Total Outlays                                                           $496,441,447




                          The accompanying notes to the principal statements
                                are an integral part of these statements.

                                                 23
                                                                               Principal Statements



                              STATEMENT OF FINANCING
                           For the year ended September 30, 1998
                                         (in dollars)



Obligations and Nonbudgetary Resources

    Obligations incurred                                                       $490,118,464
    Less: Spending authority for offsetting
             collections and adjustments                                        (14,803,670)
    Imputed financing (Note 15)                                                  17,961,303
    Exchange revenues not in the budget (Note 16)                              (456,251,634)

       Total Obligations and Nonbudgetary Resources                              37,024,463

Resources That Do Not Fund Net Cost of Operations

    Change in amount of goods, services, and
      benefits ordered but not yet received or provided                          18,452,978
    Costs capitalized on the balance sheet (Note 6)                              (9,674,767)
    Financing sources that fund costs of prior periods                           (4,325,044)
    Other                                                                         1,646,170

       Total Resources That Do Not Fund Net Cost of Operations                    6,099,337

Costs That Do Not Require Resources

    Depreciation and amortization                                                 5,571,440

       Total Costs That Do Not Require Resources                                  5,571,440

Financing Sources Yet to be Provided                                                143,651

Net Cost of Operations                                                         $ 48,838,891




                          The accompanying notes to the principal statements
                                are an integral part of these statements.

                                                 24
                                                                                      Principal Statements

                             NOTES TO PRINCIPAL STATEMENTS
                                     September 30, 1998

NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

A.     Reporting Entity

       The U. S. Nuclear Regulatory Commission (NRC) is an independent regulatory agency of the Federal
       Government that was created by the U. S. Congress to regulate the Nation’s civilian use of byproduct,
       source, and special nuclear materials to ensure adequate protection of the public health and safety, to
       promote the common defense and security, and to protect the environment. Its purposes are defined
       by the Energy Reorganization Act of 1974, as amended, along with the Atomic Energy Act of 1954,
       as amended, which provide the foundation for regulating the Nation’s civilian uses of nuclear
       materials.

       The NRC has two appropriations:

            C     31X0200 - Salaries and Expenses
            C     31X0300 - Office of Inspector General

     The NRC is under budget functional classification 276 - Energy information, policy, and regulation and
     departmental code 31.

     The 31X0200 appropriation includes approximately $19 million of funds derived from the Nuclear
     Waste Fund ($15 million appropriated for Nuclear Waste Policy Act work and $4 million for licensing
     a multi-purpose canister design) and $3 million from the General Fund for assistance provided to the
     U. S. Department of Energy (DOE).

     In addition, $8.1 million was available for obligation from appropriations provided by the U. S. Agency
     for International Development. The transfer was for the Nuclear Safety Assistance Program in Russia,
     Armenia, Kazakhstan and the Ukraine.

     The accompanying financial statements of NRC include the accounts of all funds under NRC control.

B.   Basis of Presentation

     These principal statements were prepared to report the financial position and results of operations of the
     NRC as required by the Chief Financial Officers Act of 1990 and the Government Management Reform
     Act of 1994. These financial statements were prepared from the books and records of the NRC in
     accordance with the form and content for entity financial statements specified by the Office of
     Management and Budget (OMB) in Bulletin No. 97-01, Form and Content of Agency Financial
     Statements, and NRC accounting policies which are summarized in this note. These statements are,
     therefore, different from the financial reports, also prepared by the NRC pursuant to OMB directives,
     which are used to monitor and control NRC's use of budgetary resources.




                                                     25
                                                                                Principal Statements

                       NOTES TO PRINCIPAL STATEMENTS
                               September 30, 1998

The principal financial statements are noticeably different from last year’s statements. The Federal
Accounting Standards Advisory Board’s Statement of Federal Financial Accounting Concepts Number
2, Entity and Display, recommended new principal financial statements. Based on this Concept
Statement, OMB Bulletin No. 97-01 now requires the following statements: Statement of Net Cost,
Statement of Changes in Net Position, Statement of Budgetary Resources, and the Statement of
Financing. The Statement of Financial Position contained in prior reports has been renamed the Balance
Sheet. The NRC has not prepared a Statement of Custodial Activity because the amounts involved are
immaterial and are incidental to its operations and mission.

The NRC assesses two types of fees to recover its budget authority: (1) fees assessed under 10 CFR
Part 170 for licensing, inspection, and other services under the authority of the Independent Offices
Appropriation Act of 1952 to recover the NRC’s costs of providing individually identifiable services to
specific applicants and licensees; and (2) annual fees assessed for nuclear facilities and materials
licensees under 10 CFR Part 171. All fees, with the exception of civil penalties, are considered exchange
revenues in accordance with Statement of Federal Financial Accounting Standards Number 7,
Accounting for Revenue and Other Financing Sources and Concepts for Reconciling Budgetary and
Financial Accounting. Non-exchange revenue of $7,015,287 consists of $6,501,603, received from civil
penalties, and $513,684 of miscellaneous receipts, which includes interest on delinquent debt, late
penalties, Freedom of Information Act fees, and indemnity fees.

In the Statement of Net Cost, fees assessed under 10 CFR Part 170 are shown as revenues under the
Regulatory Program. Fees assessed under 10 CFR Part 171 are shown as revenues not directly
assignable to programs. Revenue from reimbursable agreements is included in this statement, as well.

The programs as presented on the Statement of Net Cost were based on the FY 1998 budget structure.
Other budget line items, such as Management and Support and the Office of the Inspector General, were
allocated using cost-finding techniques consistent with Statement of Federal Financial Accounting
Standards Number 4, Managerial Cost Accounting Concepts and Standards for the Federal
Government. The NRC’s three programs are described as follows:

1.    Regulatory Program encompasses all NRC efforts to ensure that the operation of commercial
      and nonpower nuclear reactor facilities and all NRC-regulated aspects of nuclear fuel cycle
      facilities; nuclear materials licensing; nuclear waste transport, storage, and disposal; and
      decommissioning activities are conducted in a manner that provides reasonable assurance of
      adequate protection of public health and safety, as required by the Atomic Energy Act of 1954
      and other relevant laws.

2.    Regulatory Effectiveness Program helps ensure adequate protection of the public health and
      safety, as required by the Atomic Energy Act of 1954, by providing the Commission with the
      technical bases for regulatory decisions for all regulatory programs.




                                               26
                                                                                       Principal Statements

                             NOTES TO PRINCIPAL STATEMENTS
                                     September 30, 1998

     3.     Regulation of DOE Program involves the continued commitment of DOE and NRC to resolve
            issues of concern to either agency that relate to the regulation of nuclear facilities, projects, and
            activities in the protection of public health and safety and the environment.

C.   Budgets and Budgetary Accounting

     For the past 24 years, Congress has enacted no-year appropriations which are available for obligation
     by NRC until expended. The Omnibus Budget Reconciliation Act (OBRA) of 1990, as amended,
     requires the NRC to recover approximately 100 percent of its new budget authority of $472.8 million,
     less the amounts derived from the Nuclear Waste Fund of $15 million, by assessing fees. In addition,
     for FY 1998, Congress appropriated $3 million from the General Fund. At the end of the fiscal year,
     NRC's appropriations were reduced by $454.8 million, which is the amount of collections made during
     the fiscal year.

D.   Basis of Accounting

     Transactions are recorded on both an accrual accounting basis and on a budgetary basis. Under the
     accrual method, revenues are recognized when earned and expenses are recognized when a liability is
     incurred, without regard to receipt or payment of cash. Budgetary accounting facilitates compliance with
     legal constraints and control over the use of Federal funds. Interest on borrowings of the U. S. Treasury
     is not included as a cost to NRC’s programs and is not included in the accompanying financial
     statements

E.   Revenues and Other Financing Sources

     Licensing fees and fees for inspections and other services, assessed in accordance with 10 CFR Parts 170
     and 171, are recognized as revenue when earned. In accordance with Federal Government accounting
     guidance, the NRC classifies revenues as either exchange revenue or non-exchange revenue. Exchange
     revenues are those that are derived from transactions in which both the Government and the public
     receive value. These revenues are presented on the Statement of Net Cost and serve to reduce the
     reported cost of NRC’s programs. Non-exchange revenues are derived from the Government’s sovereign
     right to demand payment, including fines for violation of laws or regulations. These financing sources
     do not reduce the cost of NRC’s programs and are reported on the Statement of Changes in Net Position.

     For accounting purposes, appropriations are recognized as financing sources (appropriations used) at
     the time expenses are accrued. At the end of the fiscal year, appropriations recognized are reduced by
     the amount of assessed fees collected during the fiscal year to the extent of new budget authority for the
     year. Collections which exceed the new budget authority are held to offset subsequent years'
     appropriations. Appropriations expended for property and equipment are recognized as expenses when
     the asset is consumed in operations (depreciation and amortization). Appropriations used does not
     include (a) expenses incurred but not yet funded by Congress, such as workers' compensation benefits
     and annual leave expenses; and (b) expenses which are paid by other Federal agencies, such as retirement
     benefits.

                                                      27
                                                                                       Principal Statements

                             NOTES TO PRINCIPAL STATEMENTS
                                     September 30, 1998

F.   Funds with the U. S. Treasury and Cash

     The NRC’s cash receipts and disbursements are processed by the U.S. Treasury. The fund balances
     with the Treasury and cash are primarily appropriated funds that are available to pay current liabilities
     and to finance authorized purchase commitments. Cash balances held outside the U.S. Treasury are not
     material.

G.   Accounts Receivable, Net of Allowance

     The amounts due for receivables, except those due from Federal agencies, are stated net of an allowance
     for uncollectible accounts. Since receivables from Federal agencies are expected to be collected, there
     is no allowance for uncollectible accounts. The estimate of the allowance is based on an analysis of the
     outstanding balances and the application of estimated uncollectible percentages to categories of aged
     receivable balances.

H.   Advances and Prepayments

     The NRC makes cash payments to other Federal agencies, employees, grantees, and contractors to
     provide for future NRC program expenditures. These advance payments are recorded as assets which
     are reduced when NRC receives reports of expenditures or when accruals of cost estimates are made.

I.   Property and Equipment

     Property and equipment consists primarily of typical office furnishings, nuclear reactor simulators, and
     computer hardware and software. The agency has no real property.

     The land and buildings in which NRC operates are provided by the U. S. General Services
     Administration (GSA), which charges NRC rent that approximates the commercial rental rates for
     similar properties.

     Property with a cost of $50,000 or more per unit and a useful life of 2 years or more is capitalized at cost
     and depreciated. Other property items are expensed when purchased. Normal repairs and maintenance
     are charged to expense as incurred.

J.   Accounts Payable and Advances

     Accounts payable represent vendor invoices for services received by NRC that will be paid (liquidated)
     in the next fiscal year. Advances represent collections received in advance of performing services under
     a variety of reimbursable agreements. The services will be provided and the revenue earned in the
     subsequent fiscal year.




                                                      28
                                                                                      Principal Statements

                            NOTES TO PRINCIPAL STATEMENTS
                                    September 30, 1998

K.   Liabilities Not Covered by Budget Resources

     Liabilities represent the amount of monies or other resources that are likely to be paid by NRC as the
     result of a transaction or event that has already occurred. No liability can be paid by NRC absent an
     appropriation. Liabilities for which an appropriation has not been enacted and for which there is no
     certainty that an appropriation will be enacted are classified as Liabilities Not Covered by Budgetary
     Resources. Also, NRC liabilities arising from sources other than contracts can be abrogated by the
     Government acting in its sovereign capacity.

L.   Contingencies

     The NRC is a party to various administrative proceedings, legal actions, environmental suits, and claims
     brought by or against it. Based on the advice of legal counsel concerning contingencies, it is the opinion
     of management that the ultimate resolution of these proceedings, actions, suits, and claims will not
     materially affect the agency’s financial position or results of operations.

M.   Annual, Sick, and Other Leave

     Annual leave is accrued as it is earned and the accrual is reduced as leave is taken. Each year, the
     balance in the accrued annual leave liability account is adjusted to reflect current pay rates.

     Sick leave and other types of nonvested leave are expensed as taken.

N.   Retirement Plans

     The NRC employees hired after December 31, 1983, are automatically covered by the Federal
     Employees' Retirement System (FERS), which was implemented on January 1, 1987. Employees hired
     prior to that date could elect to join FERS or to remain in the Civil Service Retirement System (CSRS).
     Approximately 51 percent of NRC employees belong to CSRS and 49 percent belong to FERS. In FY
     1998, for employees in FERS, the NRC withheld 0.8 percent of base pay earnings in addition to Federal
     Insurance Contribution Act (FICA) withholdings and matched the withholding with an 10.7 percent
     contribution. The sum was transferred to the Federal Employees Retirement Fund. For employees
     covered by CSRS, NRC withholds 7 percent of their base pay earnings. This withholding is matched
     by NRC with an 8.51 percent contribution, and the sum of the withholding and the match is transferred
     to the CSRS.

     On April 1, 1987, the Federal government initiated the Thrift Savings Plan (TSP) which is a retirement
     savings and investment plan for employees covered by either FERS or CSRS. For employees covered
     by FERS, NRC automatically contributes one percent of base pay to their account and matches
     contributions up to an additional four percent. The maximum percentage that an employee participating
     in FERS may contribute is 10 percent of base pay. Employees covered by CSRS may contribute up to
     five percent of their base pay, but there is no NRC matching of the contribution. The maximum amount
     that either FERS or CSRS employees may contribute to the plan in a calendar year is $10,000. The sum

                                                     29
                                                                                      Principal Statements

                            NOTES TO PRINCIPAL STATEMENTS
                                    September 30, 1998

     of the employees’and NRC’s contributions is transferred to the Federal Retirement Thrift Investment
     Board.

     The NRC does not report on its financial statements FERS and CSRS assets, accumulated plan benefits,
     or unfunded liabilities, if any, applicable to its employees. Reporting such amounts is the responsibility
     of the U. S. Office of Personnel Management. The portion of the current and estimated future outlays
     for CSRS not paid by NRC is included in NRC’s financial statements as an imputed financing source
     (see Note 15).

O.   U. S. Department of Energy Charges

     Financial transactions between the DOE and NRC are fully automated through the U. S. Treasury's On-
     Line Payment and Collection (OPAC) System. The OPAC System allows DOE to collect amounts due
     from NRC directly from NRC's account at the U. S. Treasury for goods and/or services rendered.
     Project manager verification of goods and/or services received is subsequently accomplished through a
     system-generated voucher approval system. The vouchers are returned to the Office of the Chief
     Financial Officer documenting that the charges have been accepted. For the year ended September 30,
     1998, NRC had expenses of approximately $61 million for research conducted by the DOE National
     Laboratories.

P.   Pricing Policy

     The NRC provides goods and services to the public and other Government entities. In accordance with
     OMB Circular No. A-25 and the Independent Offices Appropriation Act of 1952, NRC assesses fees
     under 10 CFR Part 170 for licensing and inspection activities to recover the full cost of providing
     individually identifiable services. In accordance with the Omnibus Budget Reconciliation Act of 1990,
     annual fees are assessed to licensees under 10 CFR Part 171 to recover approximately 100 percent of
     new budget authority, less amounts excluded from fee recovery and those recovered under 10 CFR Part
     170.

     The NRC’s policy is to recover the full cost of goods and services provided to other Government entities
     where (1) the services performed are not part of its statutory mission and (2) NRC has not received
     appropriations for those services. Fees for reimbursable work are assessed at the 10 CFR Part 170 rate
     with minor exceptions for programs that are nominal activities of the NRC.

Q.   Use of Management Estimates

     The preparation of the accompanying financial statements requires management to make certain
     estimates and assumptions that directly affect the results of reported assets, liabilities, revenue, and
     expenses. Actual results may differ from these estimates.




                                                     30
                                                                                       Principal Statements

                              NOTES TO PRINCIPAL STATEMENTS
                                      September 30, 1998

NOTE 2. FUND BALANCES WITH THE U. S. TREASURY

Fund balances with the U. S. Treasury consist of the following amounts as of September 30, 1998:

      Appropriated funds:
           Obligated                                            $131,051,246
           Unobligated                                            28,826,389
                                                                 159,877,635
        Other fund types                                           5,341,672
                                                                $165,219,307

U. S. Government cash is handled on an overall consolidated basis by the U. S. Treasury. Funds with Treasury
represent NRC's right to draw on the U. S. Treasury for allowable expenditures. All amounts are available
to NRC for current use. The obligated and unobligated balances exclude amounts related to unfilled customer
orders.


NOTE 3. CASH

Cash consists of an imprest fund of $50,000 as of September 30, 1998.


NOTE 4. ACCOUNTS RECEIVABLE, NET

Accounts receivable, net, is composed of the following as of September 30, 1998:

Entity Assets

    Intragovernmental accounts receivable consists primarily of receivables and reimbursements due from other
    Federal agencies which were $1,993,974 at September 30, 1998.

    The non-Federal accounts receivable is comprised of the following amounts as of September 30, 1998:

             Materials and facilities fees - billed               $ 6,126,004
             Materials and facilities fees - unbilled              21,404,719
             Other                                                    136,805
                   Total accounts receivable                       27,667,528
             Less: Allowance for uncollectible accounts            (1,343,228)
                   Accounts receivable, net                       $26,324,300

    Other accounts receivable represent amounts due for fees assessed for licensing and inspections of nuclear
    facilities, the handling of nuclear materials, and other services. In the year collected, the amounts will be
    used to offset NRC's appropriations.

                                                      31
                                                                                        Principal Statements

                              NOTES TO PRINCIPAL STATEMENTS
                                      September 30, 1998

Non-Entity Assets

    Accounts receivable represents miscellaneous penalties and interest due from the public of $36,606 at
    September 30, 1998, which, when collected, must be transferred to the U. S. Treasury.

The NRC's methodology to estimate the allowance for uncollectible accounts is based on an analysis of the
outstanding balances and the application of estimated uncollectible percentages to categories of aged receivable
balances.


NOTE 5. ADVANCES AND PREPAYMENTS

Advances and prepayments as of September 30, 1998, consist primarily of the following:

    Intragovernmental:
            Advances - other Federal agencies                      $2,091,378

    Advances and prepayments                                       $ 218,772

Advances and prepayments are recorded as assets until receipt of the goods or services involved or until
contract terms are met. When goods or services are received or contract terms are met, the advance or
prepayment is reduced and the expense or acquired asset is recognized.


NOTE 6. PROPERTY AND EQUIPMENT, NET

Property and equipment, net, consists of the following as of September 30, 1998:

                                     Service      Acquisition       Accumulated           Net Book
                                      Years         Value           Depreciation           Value
Fixed Assets Class
Equipment                         5-8            $24,215,428         $(20,148,650)       $ 4,066,778
ADP software                        5             38,010,869          (34,526,507)         3,484,362
ADP software under development                    17,106,701                    -        17,106,701
Leasehold improvements             20             19,504,015           (4,777,216)       14,726,799
Leasehold improvements in progress                    47,962                    -             47,962
    Total                                        $98,884,975         $(59,452,373)      $39,432,602

Property with a cost of $50,000 or more per unit and a useful life of 2 years or more are capitalized at cost and
depreciated. During FY 1998, the NRC capitalized $9,674,767 in property and equipment.

The land and buildings occupied by the NRC are provided by GSA. The GSA charged NRC $19,368,097 for
the use of these facilities based on a rental fee which approximates the commercial rates for similar properties.

                                                       32
                                                                                    Principal Statements

                             NOTES TO PRINCIPAL STATEMENTS
                                     September 30, 1998



NOTE 7. ACCOUNTS PAYABLE AND ADVANCES

Accounts payable and advances consist of the following as of September 30, 1998:

    Intragovernmental:
       Accounts payable
          Department of Energy                                  $5,632,116
          Other Federal agencies                                 6,078,057
                                                                11,710,173
       Advances                                                      5,492
                                                               $11,715,665

    The non-Federal accounts payable include:

       Accounts payable
         Vendors payable                                        15,983,576
         Contract holdbacks                                      1,984,606
                                                               $17,968,182

The vendors payable are all current. Current payables represent amounts which are expected to be paid within
the fiscal year following the reporting date.


NOTE 8. ACCRUED PAYROLL AND BENEFITS

Accrued payroll and benefits as of September 30, 1998, consists of:

    Intragovernmental:
       Accrued benefits                 $ 2,094,961

    The non-Federal accrued personnel services include:

       Accrued payroll and benefits                            $11,614,850

Accrued payroll and benefits represent wages and benefits which have been earned but not paid as of the
financial statement date.




                                                    33
                                                                                      Principal Statements

                             NOTES TO PRINCIPAL STATEMENTS
                                     September 30, 1998

NOTE 9. OTHER LIABILITIES COVERED BY BUDGETARY RESOURCES

Other liabilities as of September 30, 1998, include:

    Intragovernmental:
       Liability to offset net accounts receivable
          for fees assessed                                     $27,764,482
       Liability related to fees collected which will
          offset subsequent years’appropriations                   4,182,693
       Liability to offset miscellaneous accounts
          receivable                                                 36,806
                                                                $31,983,981

The liability to offset the net accounts receivable for fees assessed represents amounts which, when collected,
will be transferred to the U. S. Treasury to offset NRC's appropriations in the year collected. The liability
related to fees collected which will be used to offset subsequent years’appropriations represents amounts which
will be transferred to the U. S. Treasury to offset subsequent years’appropriations. The liability to offset
miscellaneous accounts receivable represents amounts which will be reverted to the U. S. Treasury when
collected.

Other liabilities as of September 30, 1998, include:

       Liability for deposit funds                                $1,111,270
       Advances from others                                          658,559
                                                                  $1,769,829

The liability for deposit funds consists primarily of liabilities arising from payroll deductions and tax
withholdings.

All other liabilities except advances from others are current. Current liabilities represent amounts which are
expected to be paid within the fiscal year following the reporting date. Advances from others may not be
liquidated in the fiscal year following the reporting date.




                                                        34
                                                                                       Principal Statements

                              NOTES TO PRINCIPAL STATEMENTS
                                      September 30, 1998

NOTE 10. OTHER LIABILITIES NOT COVERED BY BUDGETARY RESOURCES

Unfunded liabilities as of September 30, 1998, include:

    Intragovernmental:
       Accrued workers’compensation:
          Benefits paid                                           $1,609,812
          Estimated future benefits                                4,795,000
                                                                  $6,404,812

    Accrued annual leave                                         $26,049,638

Accrued annual leave represents the amount of annual leave earned by NRC employees but not yet taken.
Accrued workers' compensation includes: (a) FECA benefits paid by the U. S. Department of Labor (DOL)
on NRC's behalf which had not been billed to or paid by NRC as of June 30, 1998, and (b) an actuarial
estimate for future disability benefits. The future workers’compensation estimate was generated by DOL from
an application of actuarial procedures developed to estimate the liability for FECA, which includes the expected
liability for death, disability, medical, and miscellaneous costs for approved compensation cases. The liability
was calculated using historical benefit payment patterns related to a specific incurred period to predict the
ultimate payments related to that period. These projected annual benefit payments were discounted to present
value.

Accrued annual leave and accrued workers’ compensation are not funded by current or prior years'
appropriations and assessments. Funding will be provided from future years' appropriations.

NOTE 11. LEASES

A description of lease agreements as of September 30, 1998, follows:

Capital Leases
   Future payments due:

                      Fiscal Year                              Lease Payments
                          1999                                     $127,358
                          2000                                        60,215
                          2001                                        63,139
                          2002                                        66,204
                          2003                                        51,754
                          2004 and thereafter                              -
Total future lease payments                                        $368,670
Less: imputed interest                                               (35,556)
    Total capital lease liability                                  $333,114


                                                      35
                                                                                      Principal Statements

                             NOTES TO PRINCIPAL STATEMENTS
                                     September 30, 1998

The total capital lease liability is considered unfunded as of September 30, 1998.

The NRC’s capital leases are for personal property consisting of reproduction equipment, which is installed
in various NRC facilities. The length of the leases vary from 4 to 5 years and the imputed interest rate, based
on rates paid, was 4.75 percent. The reproduction equipment is depreciated over 5 years using the straight-line
method with no salvage value.

Operating Leases
   Future payments due:

                     Fiscal Year                              Lease Payments
                         1999                                  $ 19,868,835
                         2000                                    20,033,846
                         2001                                    19,739,445
                         2002                                    19,527,849
                         2003                                    19,429,474
                         2004 and thereafter                    178,143,462
    Total future lease payments                                $276,742,911

Operating leases consist of real property leases with GSA. The leases are for NRC’s headquarters offices,
regional offices, and the Washington, DC, reading room. The leases have terms over 2 years and annual lease
payments of $25,000 or more. The GSA charges NRC lease rates which approximate commercial rates for
comparable space.


NOTE 12. UNEXPENDED APPROPRIATIONS

The unexpended appropriations consist of the following as of September 30, 1998:

    Unexpended appropriations:
      Unobligated                                              $ 31,396,370
      Undelivered orders                                         84,626,582
                                                               $116,022,952

Unexpended appropriations include (a) unobligated appropriation balances and (b) undelivered orders, which
are amounts which have been obligated but not yet expended. The unobligated appropriations balance does
not include $3,784,228 in unfilled customer orders - unobligated as of September 30, 1998. The undelivered
orders balance does not include $2,569,983 in unfilled customer orders - obligated as of September 30, 1998.




                                                      36
                                                                                     Principal Statements

                             NOTES TO PRINCIPAL STATEMENTS
                                     September 30, 1998

NOTE 13. CUMULATIVE RESULTS OF OPERATIONS

The cumulative results of operations as of September 30, 1998, consist of the following:

    Future funding requirements        $(32,454,450)
    Investment in property and equipment, net                   39,432,603
    Accounts receivable - refunds, net                              27,900
    Revenue from foreign cooperative agreements                  2,736,016
                                                               $ 9,742,069

Future funding requirements represent the amount of future funding needed to pay the accrued unfunded
expenses as of September 30, 1998. These accruals are not funded from current or prior-year appropriations
and assessments, but rather should be funded from future appropriations and assessments. Accordingly, future
funding requirements have been recognized for the expenses that will be paid from future appropriations.


NOTE 14. APPROPRIATIONS USED

Appropriations Used, a financing source, is recognized to the extent that appropriated funds have been
consumed less the amount collected from fees assessed for licensing, inspections, and other services. During
the year ended September 30, 1998, $458,982,693 was collected from fees assessed for licensing, inspections,
and other services. At the end of the fiscal year, appropriations recognized are reduced by the amount of
assessed fees collected during the fiscal year to the extent of new budget authority for the year. Collections
which exceed the new budget authority are held to offset subsequent years’appropriations. Included in the
$458,982,693 of fees collected is $4,182,693 available to offset subsequent years’appropriations.

For the year ended September 30, 1998, $454,800,000 of collections were used to reduce the fiscal year's
appropriations recognized:

    Appropriated funds consumed                               $ 493,767,773
    Less: Collection from fees assessed                        (454,800,000)
                                                                 38,967,773
    Collection to offset subsequent years’
      appropriations                                            (1,451,634)
                                                              $ 37,516,139

Appropriations Used includes $29,370,393 of available funds from prior years.




                                                     37
                                                                                   Principal Statements

                             NOTES TO PRINCIPAL STATEMENTS
                                     September 30, 1998

NOTE 15. IMPUTED FINANCING

In accordance with Statement of Federal Financial Accounting Standards Number 5, Accounting for Liabilities
of the Federal Government, the Statement of Changes in Net Position includes an imputed financing source
of $17,961,303. The imputed financing source represents the service costs related to NRC employees’post-
employment benefits which are paid by the U. S. Office of Personnel Management, as follows:

    Civil Service Retirement System                           $11,164,423
    Federal Employee Health Benefit                             6,753,062
    Federal Employee Group Life Insurance                          43,818
                                                              $17,961,303


NOTE 16. EXCHANGE REVENUES

Exchange revenues for the year ended September 30, 1998, were:

    Fees for licensing, inspection, and other services       $456,251,634
    Revenue from reimbursable work                              6,085,973
                                                             $462,337,607

The exchange revenue assigned to programs and revenue not assignable to programs, is as follows:

    Regulatory program revenue                               $ 96,718,258
    Revenue not assignable to programs                        365,619,349
                                                             $462,337,607


NOTE 17. EMPLOYEE RETIREMENT PLANS

The NRC’s contributions for employee retirement plans were as follows:

    Civil Service Retirement System                           $10,479,550
    Federal Employees' Retirement System                       10,416,742
    Federal Insurance Contribution Act                          8,879,543
    Thrift Savings Plan                                         4,305,298
                                                              $34,081,133




                                                    38
                                                                                       Principal Statements

                              NOTES TO PRINCIPAL STATEMENTS
                                      September 30, 1998

Data on the actuarial present value of accumulated benefits, assets available for benefits, and unfunded pension
liability are maintained by other Federal agencies and are not allocated to individual departments and agencies.
The portion of the current and estimated future outlays for CSRS not paid by NRC is included in NRC’s
financial statements as an imputed financing source (see Note 15).


NOTE 18. PRIOR-PERIOD ADJUSTMENT

The prior-period adjustment of $3,940,790 consists of the following:

    Reimbursable revenue earned in prior years                    $3,896,137
    Correction of expenditure refunds                                 44,653
                                                                  $3,940,790

The $3,896,137 represents reimbursable revenue from foreign cooperative agreements applicable to prior years.
Consistent with Statement of Federal Financial Accounting Standards Number 7, Accounting for Revenue and
Other Financing Sources and Concepts for Reconciling Budgetary and Financial Accounting, this revenue
should have been recognized as revenue in prior years. The impact of this adjustment is to increase the
cumulative results of operations as of September 30, 1997, by $3,896,137.

The $44,653 represents a correction to the beginning balance of unexpended appropriations and cumulative
results of operations for the recording of receivables for expenditure refunds and the associated allowance for
uncollectible accounts in prior years. There is no effect on net position.




                                                      39
                                                                                   Principal Statements

                            NOTES TO PRINCIPAL STATEMENTS
                                    September 30, 1998

NOTE 19. SUMMARY OF BUDGETARY RESOURCES

The budgetary resources by major fund follows:

                                                                             Other          Combined
Budgetary Resources:                        X0200            X0300           Funds            Total

     Budget authority             $ 472,025,000          $ 4,800,000      $ 4,300,000     $ 481,125,000
     Unobligated balances -
       beginning of period           24,048,047            1,632,146        3,690,200        29,370,393
     Spending authority from
       offsetting collections         4,908,396                    -                -         4,908,396
     Adjustments                      9,672,512               98,667          124,095         9,895,274
        Total Budgetary Resources $ 510,653,955          $ 6,530,813      $ 8,114,295     $ 525,299,063

Status of Budgetary Resources:

     Obligations incurred             $ 482,034,605      $ 5,328,929      $ 2,754,930     $ 490,118,464
     Unobligated balances - available    28,619,350        1,201,884        5,359,365        35,180,599
        Total Status of Budgetary
           Resources                  $ 510,653,955      $ 6,530,813      $ 8,114,295     $ 525,299,063

Outlays:

     Obligations incurred            $ 482,034,605       $ 5,328,929      $ 2,754,930     $ 490,118,464
     Less: Spending authority from
              offsetting collections
              and adjustments         (14,580,908)           (98,667)        (124,095)     (14,803,670)
         Subtotal                      467,453,697         5,230,262        2,630,835       475,314,794
     Obligated balances, net -
       beginning of period             141,162,720         1,350,282        3,314,460       145,827,462
     Less: obligated balance, net -
       end of period                  (121,515,836)       (1,385,322)      (1,799,651)     (124,700,809)
         Total Outlays               $ 487,100,581       $ 5,195,222      $ 4,145,644     $ 496,441,447


The adjustments of $9,895,274 to budgetary resources above consist of recoveries of prior-year obligations.




                                                    40
III. APPENDIX
Comment of the Chief Financial Officer   Appendix
Comment of the Chief Financial Officer   Appendix
Comment of the Chief Financial Officer   Appendix
Comment of the Chief Financial Officer   Appendix
